CERTIFICATE OF SERVICE
No. 20-1162
MAINE COMMUNITY HEALTH OPTIONS, et al.,
Petitioners,
v.
UNITED STATES,
Respondent.
I, Paul J. Zidlicky, do hereby certify that, on this twenty-fifth day of March,
2021, I caused a copy and an electronic copy of the Brief for Amicus Curiae
Chamber of Commerce of the United States of America Supporting Petitioners in
the foregoing case to be served by first class mail, postage prepaid, and by email, on
the following parties:
PAUL D. CLEMENT
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, N.W.
Washington, D.C. 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Petitioners

ELIZABETH B. PRELOGAR
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent
/s/ Paul J. Zidlicky
PAUL J. ZIDLICKY
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

